                         United States Department of the Interior
                                         OFFICE OF INSPECTOR GENERAL
                                                   Washington. D.C. 20240




                                                                                       JuL 29 2009
The Honorable Frank Pallone, Jr.
Chairman
Subcommittee on Health
U.S. House of Representatives
Washington, DC 20515 -4803

Dear Mr. Chairman:

       With this letter, I am enclosing the Office of Inspector General (OIG) Report of Investigation
(ROn into issues related to the lease agreement between the National Park Service (NPS) and Sandy
Hook Partners (SHP) for the redevelopment of Fort Hancock at the Gateway National Recreation Area 's
Sandy Hook Unit.

          This investigation did not identify any violations oflaw. Our investigation revealed that SHP provided
documentation to NPS supporting their ability to finance the Fort Hancock redevelopment at two phases
of this process and they remain obligated to provide additional proof by dates specified within the latest
amendment to the lease. This investigation revealed that NPS granted extensions to the Letter of Intent
and to the lease for the benefit of both NPS and SHP. No statutes or regulations were identified that
govern NPS ' s ability to grant or limit future extensions of this lease. A comparison of the financial
requirements imposed on SHP with the requirements imposed in two other NPS historic leases revealed
that although the requirements were different for each lease, the intent of the requirements in all instances
was to ensure that the selected developer had the capacity to complete their respective projects. The
traffic studies associated with the Fort Hancock redevelopment were conducted and paid for by NPS. No
assignment of authority was required between Wassel Realty Group and SHP. Finally, this investigation
did not identify any unfair advantage created by the changes made from the draft lease to the fina11ease
between NPS and SHP.

        The results of our investigation are presented in detail in the ROJ. We are providing you with
two versions of the Report - the full Report together with attachments, and a redacted version. The full
Report contains certain personal privacy and other privileged information that would not be released to
the public under the Freedom of Information and Privacy Acts. Therefore, we respectfully request that
you treat this information accordingly.

        If you have any questions, please feel free to contact me at (202) 208-5745, or your staff may
contact Associate Inspector General for External Affairs, Kris Kolesnik, at (202) 513-0326.




                                                   ~A~~
                                                   Mary L. Kendall
                                                   Acting Inspector General

Enclosures
Investigative Report of
 Sandy Hook Partners
       Redacted




     Report Date: July 14, 2008
  Date Posted to Web: July 29, 2009
                            United States Department of the Interior
                                            Office of Inspector General


                                           REPORT OF INVESTIGATION

  Case Title                                              Case Number
  Sandy Hook Partners                                     PI-NY-07 -0399-1
  Reporting Office                                        Report Date
  Acquisition Integrity Unit                              July 14, 2008
  Report Subject
  Final Report of Investigation


                                                    SYNOPSIS

  This investigation was initiated in response to a letter dated July 2, 2007, from Congressman Frank
  Pallone, Jr. (D-NJ). Congressman Pallone requested that an investigation be initiated into the lease
  between the National Park Service (NPS), and Sandy Hook Partners (SHP). Congressman Pallone
  posed several questions regarding the financial requirements that NPS imposed upon SHP to prove
  their ability to finance the redevelopment and the number of extensions NPS granted to SHP.

  The Save Sandy Hook Foundation also raised questions to this office regarding the traffic studies
  conducted in connection with the SHP lease; the necessity to execute an assignment of authority to
  lease from Wassel Realty Group (WRG) to SHP; and the fairness of changes made from the terms of
  the draft lease to the terms of the final NPS/SHP.

  lbis investigation did not identify any violations of law. Our investigation revealed that SHP provided
  documentation to NPS supporting their ability to finance the Fort Hancock redevelopment at two
  phases of this process and they remain obligated to provide additional proof by dates specified within
  the latest amendment to the lease. This investigation revealed that NPS granted extensions to the
  Letter of Intent and to the lease for the benefit of both NPS and SHP. No statutes or regulations were
  identified that govern NPS' s ability to grant or limit future extensions of this lease. A comparison of
  the financial requirements imposed on SHP with the requirements imposed in two other NPS historic
  leases revealed that although the requirements were different for each lease, the intent of the
  requirements in al1 instances was to ensure that the selected developer had the capacity to complete
  their respective projects. The traffic studies associated with the Fort Hancock redevelopment were
  conducted and paid for by NPS . No assignment of authority was required between WRG and SHP.
  Finally, this investigation did not identify any unfair advantage created by the changes made from the
  draft lease to the final lease between NPS and SHP.

  Reoortin Q Officialffitle
Ex. (b )(6) and (b )(7)(C){Special Agent
                                                          :Ex. (b )(6) and (b )(7)(C)
  Approving Officialffitle
    Alan F. Boehm, Director . Program Integdty Division
  Authentication Number: (b) (2)




                                                                                            01·002 (06/08)
                                                                      c~o"   Number:   PI·NY·07·0399·I
                                          BACKGROUND

Fort Hancock, Sandy Hook Unit, Gateway National Recreation Area (GNRA), National Park Service.

In August 1999, the NPS issued a Request for Proposals (RFP) for the leasing and rehabilitation of
historic structures within Fort Hancock, a deactivated military base which was recognized by the U.S.
Department of the Interior (001) as a National Historic Landmark in 1982.

In total, twenty·two proposals were received and evaluated by NPS between November 8,1999, and
March 27, 2000. NPS ultimately selected two proposals for lease negotiations; the American Littoral
Society and WRG.

(Agent's note: To date no allegations have been received relating to NPS's selection of the American
Littoral Society. Therefore, the lease between NPS and the American Littoral Society was not
reviewed as part of this investigation.)

WRG proposed to lease forty-four of the historic structures at Fort Hancock to be used as research,
office, and educ,ational facilities. Following the selection of WRG from the RFP process, James
Wassel, Principal, WRG, incorporated Sandy Hook Partners (SHP), to manage the Fort Hancock
redevelopment. On November 29, 2001, NPS and SHP entered into a Letter of Intent (LOn, to enter
into a lease. Three extensions were granted to the LOI between November 27, 2002, and July 14,
2004. During this time period, and as a condition of the LOI, SHP was required to demonstrate that
they had obtained "a commercially reasonable commitment for financing necessary for the fulfillment
of its obligations under the terms of the [l]ease." On July 9, 2004, NPS determined that SHP had
fulfilled their obligations under the LOI and subsequently entered into the Fort Hancock Historic
Lease.

Beginning in June 2004, the Save Sandy Hook Foundation (SSH), a non-profit organization whose
mission is to conserve the natural and historical assets of Fort Hancock and Sandy Hook, began
formally notifying NPS and SHP of their intent to sue them in Federal District Court. The purpose of
the suit was to "enjoin and cancel" the NPS/SHP lease. This suit was filed on December 1, 2004.

In June 2004, this office completed an investigation into allegations that NPS violated federal
regulations in the Fort Hancock leasing process. The investigation also examined whether Wassel
influenced the decision of the evaluation panel, or if he received an unfair advantage during the RFP
process. Our investigation found these allegations to be unsubstantiated and no action was taken.

NPS Leasing Authority and Relevant Regulations and Policy

In 1998 Congress enacted the National Park Service Concessions Management Improvement Act of 1998.
Following the enactment of this act in 2002, the management of the NPS leasing program was
transferred from the Office of Cultural Resources to the NPS Concession Program.

The NPS' s Historic Leasing Authority is granted pursuant to the National Historic Preservation Act of
1966,16 U.S.C. § 470h-3, which provides in part that any Federal agency "may lease an historic
property owned by the agency to any person or organization ... if the agency head determines that the
lease will adequately insure the preservation of the historic property" (Attachment 1). The
aforementioned regulation was promulgated in Title 36 C.F.R. Part 18 (Attachment 2).



                                       OFFICIAL USE ONLY
                                                   2
                                                                       C"u" Number: PI-NY-07-0399-I
Chapter 5.3.3 of the 2001 NPS Management Policies states "The National Park Service may lease or
permit the use of a historic property through a cooperative agreement, if such lease or cooperative
agreement will ensure the property's preservation" (Attachment 3). This policy was rendered
obsolete with the implementation of NPS Director's Order 38 (DO 38) which was issued on January
19, 2006. DO 38 serves as supplemental guidance to Title 36 C.F.R. Parts 17 and 18 (Attachment 4).

NPS has been in the process of drafting Reference Manual 38 (RM 38), the NPS Reference Manual for
leasing park area properties under the authority of 36 C.F.R. Part 17 and 36 C.F.R. Part 18, since 2002.
"RM 38 is intended to give field guidance in the planning, execution and administration of park area
leases." As of the date of this report, NPS has not finalized RM 38 and as such there is no requirement
to follow the guidance within RM 38 (Attachment 5). Additionally, no evidence was obtained which
would indicate that this manual was either available to or referenced by the parties involved in the Fort
Hancock leasing process.

                                  DETAn.s OF INVESTIGATION

This investigation was initiated in response to a letter dated July 2,2007, from Congressman Frank
Pallone, Jr. (D-NJ), who requested that an investigation be initiated into the NPS/SHP lease
(Attachment 6). In his letter Congressman Pallone specifically requested that the following questions
be answered by this investigation:

   •    Why did NPS approve a lease with SHP without their providing proof of financing at the time
        of the agreement?
   •    Did NPS have any financial requirements that must be met prior to a lease agreement being
        made?
   •    Were the financial requirements met in the lease between the NPS and SHP?
   •    Did NPS require SHP to submit any loan agreements that they made with outside entities?
   •    Are there any prohibitions or limits on the NPS's ability to continue granting extensions to the
        lease agreement?
   •    Does the NPS require any proof of financing prior to approving extensions to SHP?
   •    Can the NPS continue to grant future extensions to SHP?
   •    When will NPS consider terminating the lease with SHP so that other options, not involving
        private redevelopments, can be explored?
   •    Why are the NPS requirements for financing the Fort Hancock lease different from the
        requirements used in the Golden Gate National Recreation Area, Fort Baker lease and Hot
        Springs National Park, Historic Bath House lease?

Representatives of SSH also requested that this investigation address the following issues:

    •   Determine who conducted the traffic and environmental studies associated with this lease.
    •   Determine if an assignment of authority to lease was executed from WRG to SHP.
    •   Determine if an unfair advantage was created when NPS changed the financial requirements
        that appeared in the draft lease to the terms of the final lease.

Concerns Raised by Rep. Pallone

    •   Why did NPS approve a lease with SHP without their providing proof of financing at the time
        of the agreement?


                                        OFFICIAL USE ONLY
                                                :3
                                                                       C"v'; Number:    PI-NY-07-0399-1

This investigation revealed that SHP was required to provide documentation to NPS relevant to their
ability to finance the Fort Hancock redevelopment at three distinct stages of this process: first, in
response to the RFP; second, as a requirement under the LOI; and third, as a condition of the final
lease. Evidence has been obtained during this investigation which indicates that SHP provided
financial information at both the RFP and LOI phases of this process. On both occasions this
information was evaluated and approved by NPS. Additionally, as a condition of the final lease, SHP
must provide firm financial commitments to NPS, by a date specified within the most recent
amendment to the final lease, documenting their ability to finance phase one of the redevelopment.
The following is a detailed account of what SHP provided to NPS at each of these phases and how
NPS evaluated and proceeded with this information.

The RFP Phase

A review of the RFP revealed seven evaluation factors against which the proposals were evaluated. In
addition to the evaluation factors, the RFP contained numerous "questions" which appeared to
augment the evaluation criteria. Selection Factor 5, Financial Capability and Assurances reads:

        "The proposer provides financial information supporting its capacity to undertake the
preliminary reuse plan; Proposer estimates the preliminary total development costs, including
expected financing, associated with the preliminary reuse concept and demonstrates that these
preliminary costs are based upon the best information available to date; proposer presents a project
indicating assumptions and provides assurance to the NPS of the rational basis and integrity of the
pro-formas. ..

Following this selection factor the RFP contained numerous "questions" which in part requested the
following: (5. I) specific information that further demonstrated the proposer's financial capacity to
complete the project, (5.2) information illustrating the total preliminary development costs. Within
these questions the RFP listed numerous items that could be submitted to address these questions.

According to the Evaluation and Selection Process section of the RFP, 'The questions provided
beneath the selection factors should be individually addressed. However, they are not intended to be
the only information the proposer could or should provided in addressing the related selection factor"
(Attachment 7).

A review of WRO's proposal dated November 8, 1999, revealed correspondence from financial groups
interested in financing the redevelopment. Additionally, WRG's proposal disclosed that "the business
structure of WRG does not maintain anyon-going balance sheet items of any consequence, other than
minor assets such as FF&E and minor liabilities such as rent and other operating expenses." Detailed
preliminary cost estimates and pro forma cash flow statements were prepared and submitted by WRG
in response to selection criteria 5 (Attachment 8).

Michael Adlerstein, former Associate Regional Director for Professional Services and Chairman of the
RFP evaluation panel (the panel), Northeast Region, NPS, was interviewed and stated that only WRG
and Crifasi, another respondent, submitted the financial information requested in the RFP. Alderstein
also said that in a letter dated December 3,1999, he invited the RFP respondents that the panel
determined to be the "most advantageous" to NPS to attend an interview with the panel and to "supply
evidence of your organizations financial resources and any demonstration of financial commitments
from development partners" (Attachments 9 & 10).


                                       OFFICIAL USE ONLY
                                               4
                                                                       C"o" Number:     PI-NY-07-0399-1

As of the dale of this reporL, NPS has been unable to locate any documents submitted in response to the
above referenced letter. When interviewed, Adlerstein recalled that the items requested in the letter
were really for the other developers, and not WRG, because WRG had already submitted credible
financial information in their initial responses to the RFP (See Attachment 9).

In response to Adlerstein's December 3, 1999 request, Wassel advised that WRG submitted a letter to
NPS dated January 7, 2000, from 1-10 Industry Associates, LLC, which states that "subject to a
mutually acceptable ground lease Industry City Associates' intention is to fund the development. .. "
Industry City Associates claims to be the "largest private landlord in the Tri-State area" Additionally,
WRG submitted a document entitled "The Continuing Development of Fort Hancock, Sandy Hook
New Jersey, Sources & Uses" which lists $42,996,800 as coming from equity, corporate sponsors and
a construction loan. This document breaks down the use of these funds into hard costs, soft costs and
other costs (Attachments 11-13).

On March 27, 2000, Adlerstein provided the evaluation panel's analysis and recommendations for the
Fort Hancock lease to Marie Rust, then Northeast Regional Director, NPS (Attachment 14). Within
the evaluation"the panel recommended that NPS select the proposals of the American Littoral Society
and WRG. Specifically, in the panel's evaluation ofWRG's response to Selection Criterion 5, the
panel stated:

        "The proposal provides information that supports ability to obtain financing for the project,
including a letter from a real estate company (described as the largest private landlord in the tri-state
area) that states that it intends to fund the development of the project, subject to an acceptable ground
lease. The proposals include credible cost estimates for the project and includes several pro formas as
requested by the RFP. "

When interviewed, Adlerstein advised that although there was specific evaluation criteria listed in the
RFP, the RFP also stated that NPS would be selecting the "best proposal." Adlerstein advised that the
questions listed under the evaluation criteria were not the minimum requirements of the RFP.
Adlerstein described that the criteria within RFP was "desired" by NPS but was not "required."
Adlerstein acknowledged that the wording within the RFP was "gray" with respect to the questions
listed under the evaluation criteria. According to Adlerstein, NPS selected the developers who were
the best of the respondents to the RFP, not necessarily the perfect response. Adlerstein stated that
WRG was chosen as the best, not because they were perfect, but because they were better than the
others. According to Adlerstein, NPS was not looking for perfection, referring to the respondents
financing. He added that NPS was looking for adequate assurance that the developer selected could
complete the project (Attachment 15).

During the course of this investigation William Alexander, Wharton School, Family-Controlled
Corporation Program, and Lars Hanslin, private consultant to NPS, were interviewed. Alexander and
Hanslin served as financial and leasing consultants, respectively, to NPS during the RFP process.
Information obtained during these interviews indicates that WRG's response to the RFP was the most
professional response received by NPS. According to these consultants, none of the respondents
provided all of the information requested within the RFP (Attachments 16 and 17).

In a memorandum to the reporting agent dated October 22, 2007, Anthony Conte, Regional Solicitor,
U.S. Department of the Interior, advised that "NPS was seeking 'proposals that fulfill to the greatest
extent practical the goals described in this RFP.' In evaluating the RFP responses, the NPS looks at

                                       OFFICIAL USE ONLY
                                               5
                                                                      C •.,.; Number: PI·NY·07·0399-1
the proposals as a whole to determine whether the proposal is consistent with its goals rather than
whether any particular element is missing. In my experience it [is] very common that offerors fail to
address one or more elements of RFP' s for leases or concession contract prospectuses" (Attachment
18).

Jo Pendry, Chief, Concessions Program, NPS, was interviewed. According to Pendry, a determination
on the responsiveness of a particular proposal is left up to the panel. The panel is tasked with
identifying the proposal(s) which "best meet the evaluation criteria." Pendry advised that after
reviewing the Fort Hancock RFP she identified numerous places within the RFP that speaks to NPS
intent to select the best overall proposal. The members of the evaluation panel are selected because of
their professional judgment and knowledge. Pendry advised that there are no guidelines issued to an
RFP evaluation panel. What NPS is asking for is not "hard and fast" they are trying to select the
"best" candidate to further negotiate the terms of a lease. Pendry feels that in reading the "plain
language" of the Fort Hancock RFP it provides latitude to the respondents not to have to address every
detail of the RFP (Attachment 19).

This investigation revealed that WRG did not provide responses to every question listed within the
RFP. Howeve~, based upon the interviews conducted with NPS and DOl staff and the NPS consultants
who participated in the RFP process, it was not necessary for a respondent to do so. NPS's selection of
WRG appears to be based upon the evaluation panel's review and determination that WRG's proposal
met NPS's needs on an overall basis. This determination is consistent with the only regulation that this
office has identified regarding NPS ' s review and selection of a respondent to an RFP which reads as
follows:

Title 36 C.F.R. Part 18.8(f) states that "The Director will evaluate all responsive proposals received.
The responsive proposal determined by the Director to best meet on an overall basis the evaluation
criteria will be selected for negotiation of the lease."

The Letter of Intent Phase

On November 29, 2001, NPS and SHP entered into a LO!. Section 7 ofthe LOI required SHP to
submit "evidence satisfactory to the NPS that SHP has obtained a commercially reasonable
commitment for financing necessary for the fulfillment of its obligations under the terms of the Lease."
This information was to be submitted prior to the execution of the lease and within six months after a
finding of no significant impact was made (Attachment 20).

Four extensions were granted during the LOI phase. The final deadline for submission of evidence of
financing was July 12,2004 (Attachment 21).

(Agent's note: The circumstances surrounding these extensions will be discussed in detail in latter
sections of this report.)

On June 30, 2004, SHP submitted a package entitled Evidence of Finance to NPS. SHP' s submission
in this regard was comprised of, but was not limited to; LOIs from entities interested in leasing
buildings from SHP, letters of interest from banks, information pertaining to educational grants, and
historic tax credits (Attachment 22).

William Alexander, Wharton School, Family-Controlled Corporation Program, was interviewed.
Alexander, a consultant to NPS , conducted an analysis of the information submitted by SHP to


                                        OFFICIAL USE ONLY
                                                6
                                                                        c..~_ Number: PI-NY-07-0399-I
determine if they met the terms of section 7 of the LO!. Alexander advised that NPS never gave him
any instruction or definition as to what constitutes "evidence of financing." Alexander stated that he
conducted the analysis of SHP' s submission by exercising his judgment and professional experience.
On or about July 1, 2004, Alexander provided NPS with a preliminary analysis of his findings which
outlined numerous deficiencies in SHP's submission. Alexander suggested two alternatives for NPS to
pursue with SHP; first NPS could continue to work with SHP under a series of short term extensions to
the LOI in order to allow SHP additional time to provide more definitive financial commitments, or
second, NPS could require SHP to meet a "narrow interpretation" of section 7 of the LOI and if they
are able to do so NPS would agree to enter into the lease with SHP. In order to fulfill Alexander's
expectations under the second option, Alexander estimated that SHP needed approximately $937,000
available in working capital to complete the steps necessary to gain "firm financial commitments" for
Phase I of the Fort Hancock redevelopment. Alexander's reasoning was that if SHP had this amount of
working capital available, in time they would be able to attract financial partners to fund the project
(Attachment 23 & See Attachment 16).

In a letter dated July 2, 2004, Wassel documented that SHP had working capital in the amount of
$2,160,000. In addition Wassel attached a personal financial statement dated June 2004, in which
Wassel represented to possess $2,950,000 in real estate and total assets in the amount of $6,655,000
(Attachment 24).

In a letter dated July 9,2004, based upon his review of the lease, the written submissions of SHP,
Wassel's personal representations, and the history of the project funding as represented by Wassel and
his associates, Alexander stated that "I am satisfied that SHP has the financial resources to fulfill its
obligations under section 7 of the LOI" (Attachment 25),

Lars Hanslin, private consultant to NPS and former 001 Associate Solicitor was interviewed. Hanslin
served as a consultant to NPS during the RFP and leasing phases of the Fort Hancock project. Both
Hanslin and Alexander recalled that one ofthe issues raised by Wassel during the LOI phase was that
he could not get firm commitments from lenders without a signed lease (See Attachments 16 & 17).

Hanslin recalled reviewing Alexander'S analysis and advised that Alexander found numerous
deficiencies in the financial information submitted by SHP. According to Hanslin, NPS addressed
these deficiencies by including an amendment to the lease which gave SHP six additional months to
prove their ability to finance the project. The amendment also included a new provision requiring SHP
to waive their right to sue NPS should NPS decide to terminate the lease with SHP. Hanslin believed
that it was NPS' s best interest to enter into the lease with this added provision. Hanslin was confident
that prior to adding this provision, if NPS had terminated the lease, SHP would have had a cause for
action against the NPS for the delays associated with the environmental assessment conducted by NPS
up to this time. Hanslin believed that this new provision was beneficial to the government because
SHP now had a strict deadline in which to prove their ability to finance the project and they could not
sue NPS for terminating the lease if they failed to meet this deadline. Hanslin opined that NPS is in a
better legal position than if they had not signed the lease and granted an extension to the WI (See
Attachment 17).

Pendry acknowledged that in two other NPS leases that succeeded the SHP lease, NPS required the
developer to provide proof of their financial ability prior to entering into the lease. Pendry did not
know why the SHP lease was handled differently, and suggested that it may have been a regional
decision. The decision to allow SHP to obtain financing after entering into the lease, as well the dates
by which SHP is required to submit proof of their financing, falls within the discretion of the Regional

                                       OFFICIAL USE ONLY
                                               7
                                                                        C""V Number: PI-NY-07-0399-I
Director. Pendry further stated that NPS may have learned a lesson through the SHP lease which led
them to require proof of financing prior to lease execution.

Pendry stated that she does not see any undue risk on behalf of the NPS in the SHP lease because of
the provisions contained in "kick out clause" that was added to the lease prior to execution. The "kick
out clause" provided a date by which SHP must submit proof of financial ability. Pendry emphasized
that NPS is not obligated to continue to extend this date. Additionally, the "kick out clause" prohibits
SHP from suing NPS for any reason, which Pendry characterized as smart on behalf of the region and
the solicitor's office. Pendry believes that by signing the lease rather than continuing to extend the
LOI, NPS gained the protection of the aforementioned clause in which SHP waived their right to
litigation. Pendry stated that her preference is to have the developer obtain financing prior to entering
into the lease, however; she does not see any undue risk to the NPS by allowing a developer to enter
into a lease provided that the lease contains protections similar to those contained within the "kick out
clause" of the SHP lease (See Attachment 19).

In an e-mail to the reporting agent, Pendry acknowledged that her office has been unable to locate any
internal policy or definition as to what constitutes adequate "proof of financing" as it pertains to the
NPS leasing p~ocess (Attachment 26).

During the course of this investigation no NPS policy or regulation was identified which defines
"commercially reasonable commitment for financing" as described in the LO!. As a current practice, it
remains the decision of the NPS Director, or delegated Regional Director, to make the determination as
to the potential lessees satisfaction of this requirement on a lease by lease basis.

LEASE

   •   Did NPS have any financial requirements that must be met prior to a lease agreement being
       made?

This investigation has been unable to identify any regulation or NPS policy which defines the financial
requirements that must be met prior to a lease agreement being executed by NPS.

Title 36 C.F.R. § 18.8(e)(1)(ii) provides that "[t]he financial capability of the offeror to carry out the
terms of the lease" must be used as a criteria for selecting the best proposal at the RFP stage (See
Attachment 2). Title 36 C.F.R. Part 18 does not address what financial requirements must be met prior
to entering into a lease.

NPS draft RM 38, Section 9.10. Evidence of Adequate Funds, states:
       "As a condition to the approval of the construction of improvements, the Lessee must
       demonstrate to the satisfaction of the Lessor with appropriate documentation that it has
       available to it funds adequate to undertake and complete the project in accordance with all
       terms and conditions of the approved constmction drawings.
        'Appropriate documentation' should included credible estimates of the cost of the
       improvements and, with respect to available funding, bank statements, letters of credit, etc. "
RM 38 is still in draft form and therefore NPS is not bound by its guidance. This manual was in an
earlier draft form at the time of the SHP lease, however; no evidence has been obtained which
indicates that this manual was referenced in connection with this lease (See Attachment 5).


                                        OFFICIAL USE ONLY
                                                S
                                                                        L._~ Number: PI-NY-07-0399-1
When interviewed, Pendry described that it is NPS ' s "practice" to require a letter of commitment from
a lender prior to entering into a lease. Pendry explained that the financial requirements to enter into a
lease with NPS are not the same for every lease. This is in part due to the wide range in value of NPS
leases, which can range from $12,000 per year to hundreds of millions of dollars. Pendry described
that it is not uncommon for NPS to enter into a lease and then require the lessee to obtain financing
(See Attachment 19).
   •    Did NPS require SHP to submit any loan agreements that they made with outside entities?

This investigation disclosed that the NPS/SHP lease requires SHP to submit and receive approval from
NPS prior to obtaining any loans associated with financing the Fort Hancock redevelopment. Further,
to date all loans obtained by SHP in association with the Fort Hancock redevelopment have been
reviewed and approved by NPS.

A review of Section 14, SUBMISSION OF EVIDENCE OF FINANCING; CLOSING OF
FINANCING, and Exhibit A, Section 3.B. Submission of Financial Commitments for Phase I, of the
SHPINPS lease revealed that the lessee "shall submit to the Lessor commercially reasonable evidence,
satisfactory to the Lessor, that the Lessee has obtained a commercially reasonable commitment for
financing necessary for the construction ... Any conditions to the obligations of the lenders to fund the
loan including, but not limited to, approval of title exceptions, survey, the Lease and Design and
Construction Documents, shall be submitted to the Lessor, in writing, and shall be subject to the prior
written approval of the Lessor."

A review of Section 30, LEASEHOLD MORTGAGES, of the SHPINPS lease indicates that SHP may,
subject to NPS's prior written permission, mortgage its interest in the leasehold estate created by the
lease (Attachment 27).

This investigation identified one instance in which a loan agreement was submitted to and approved by
NPS in this matter. During his interview Wassel advised that he has obtained approximately $1
million dollars in funding from Michael W. Huber, a private individual. The loan from Huber is being
used to rehabilitate the chapel, the theater and building 26. Wassel advised that consistent with the
terms of the lease, NPS has reviewed and approved SHP' s agreement with Huber (Attachment 28).

A review of documentation provided by NPS indicates that NPS contracted with Holzhauer &
Holenstein (H&H), LLC Real Estate Advisory Services, to evaluate the terms of the promissory note
from Huber. H&H was asked to make a recommendation relevant to NPS' s approval of the note in
accordance with the terms of the SHP lease. In a report dated May 9, 2007, H&H recommended
approval of the leasehold mortgage (Attachment 29).

As of the date of this report, no other loans have been proposed to or reviewed by NPS in association
with this lease.

Evidence has been obtained which indicates that NPS is actively seeking consultant services to review
the evidence of finance and leasehold mortgages anticipated to be submitted in compliance with
Exhibit A of the NPS/SHP lease (Attachment 30).

    •   Are there any prohibitions or limits on the NPS' s ability to continue granting extensions of the
        lease agreement?



                                        OFFICIAL USE ONLY
                                                9
                                                                          C"",, Number:     PI-NY-07-0399-1
This investigation has not identified any statute, regulation, or NPS policy which addresses extensions
to the conditions of the lease. Title 36 C.F. R. § IS.10 provides that the term of the lease may not be
extended, except for circumstances beyond the Director's control; however, this clause does not speak
to extensions granted to the specific conditions of the lease such as those granted in the SHPINPS
lease.

During his interview Conte stated that he has provided guidance to NPS regarding the extensions
granted to SHP. Conte opined that NPS is not limited in the amount of extensions that they may grant
to SHP (Attachment 31).

Richard Wells, Superintendent, SHU, NPS, was interviewed and advised that according to the terms of
the lease, NPS has the sole discretion to provide SHP additional time to obtain financing. Wells is not
aware of any regulations or policies that limit the amount of time or the number of extensions that NPS
can grant (Attachment 32).

Pendry advised that there is no specific regulation or NPS policy which governs NPS's ability to grant
extensions to the terms of a lease. These matters occur at the discretion and authority of tbe Director, or
may be delegated to a Regional Director. Pendry stated that it would be NPS's best practice for the
regional office to review tbe circumstances surrounding the necessity for an extension with the Office of
the Solicitor, DOl, to ensure that tbe decisions they are making are legally sufficient and in accordance with
applicable laws and regulations. Pendry acknowledged that the only laws and regulations that she is aware
of which apply to leasing are 36 C.F.R. § 18, and NPS Director's Order 38 (See Attachments 2, 4 and 19).

    •   Does the NPS require any proof of financing prior to approving extensions to SHP?

This investigation has not identified any statute, regulation, or NPS policy which addresses extensions
to the conditions of the lease. According to NPS and DOl officials, if SHP were capable of
demonstrating their ability to finance the redevelopment, there would be no need for further
extensions.

When interviewed Conte stated that NPS has not requested that SHP show proof of financing in order
to obtain further extensions. Conte believes that if SHP were able to show proof of financing, an
extension would not be necessary. According to Conte, the extensions are necessary due to the
uncertainty caused by the pending litigation against NPS and SHP (See Attachment 31).

Wells stated that according to the terms of the last amendment to the lease which extended the
financing deadline for SHP, SHP has ninety days following final adjudication of the pending civil
litigation to meet the terms of the lease. Following this ninety day period, if SHP does not submit any
information documenting their financing for phase one of the Fort Hancock project, NPS may find
SHP in default of the terms of the lease. If NPS disapproves the evidence of financing submitted by
SHP, there is a process within the lease for resolution of this dispute (See Attachment 32).

Pendry stated that there is no requirement for SHP to provide proof of financing in order to receive
further extensions. Pendry stated that the "kick out clause" included in the lease between SHP and
NPS set a specific date by which SHP's proof of financing was to be submitted to NPS. Pendry
acknowledged that this is the date that has been repeatedly extended due to ongoing SSH litigation
against SHP and NPS. Pendry understands that the extensions to this submission date were needed
because of this litigation; therefore no financial information has been requested from SHP in order to
approve the extensions (See Attachment 19).


                                         OFFICIAL USE ONLY
                                                      10
                                                                                           C.~    Number:        PI-NY-07-0399-J

    "   Can the NPS continue to grant future extensions to SHP?

This investigation has not identified any regulation or NPS policy limiting the NPS's ability or
authority to grant future extensions to SHP. The decision to grant further extensions to the conditions
of a lease lies within the authority of the Director or delegated Regional Director associated with the
lease.

During his interview Conte stated that it is his belief that NPS' s ability to grant additional extensions to
SHP is not contingent upon any regulation or policy, rather it would be based upon the circumstances
surrounding the matter at the time that the extension is needed (See Attachment 31).

This investigation revealed that NPS granted extensions to SHP in order to meet the terms and
conditions of both the LOI and the lease. In total three extensions were granted to SHP in order to
fulfill the terms of the LOI. To date three amendments to the final SHPINPS lease, which extended the
time given to SHP to meet the financial requirements of the lease, have been executed. The following
is a detailed account of the circumstances surrounding the aforementioned extensions.

A review of documents obtained during this investigation has identified the following dates as
pertinent to the deadlines and extensions associated with the Fort Hancock LOI and lease:
   •    LOI between SHP & NPS ...................................................................... ..... 11129/01
   •    First LOI extension to 11130/03 signed ....................................................... 11127/02
   •    Second LOI extension to 6/30/04 signed .......................... .. ........................ 11/17/03
   •    SHP evidence of finance submitted .............................................................. 6/30/04
   •    Third LOI extension to July 14,2004 ........................................ ................... 6/30/04
   •    Fort Hancock Historic Lease signed ............................................................. 7/09/04
   •    Notice of Intent to Sue or "Challenge Lease" .............................. ............... 08/09/04
    •   Save Sandy Hook lawsuit complaint received by NPS .. ..................... ........ 12/01/04
    •   Lease amended/extension #1 .................................................... .. ................ 12122/04
   •    Lease amended/extension #2 ......................... ............................ ........ .......... 6122/05
    •   Lease amended/extension #3 - .................................................................... 06/30/06
   •    Judgment entered in favor of NPS and SHP ........................ .. .......... 09/13/07
    •   Notice of intent to appeal filed by SSH .... ...................................... 11112/07


Section 18 of the LOI provides that if the Lease is not executed by November 30, 2002, the LOI will
be considered null and void, "unless extended by written mutual agreement of the parties" (See
Attachment 20).
William Nelligan, Assistant Superintendent, GNRA, NPS, was interviewed. Nelligan advised that
NPS conducted a National Environmental Protection Act (NEPA) Environmental Assessment (EA) of
the Fort Hancock redevelopment. The first extension to the LOI was granted to allow NPS time to
complete the EA. The EA was completed and a Finding of No Significant Impact (FONSI) was issued
in July 2003 (Attachment 33).


                                                 OFFICIAL USE ONLY
                                                         11
                                                                        C ... "-o Number: PI-NY-07-0399-I

In a letter dated October 7, 2003, Wassel requested an extension to the LOI to allow SHP the "time
necessary to effectively, propose, close and commit the proper funds" for the redevelopment. In a
letter dated November 14,2003, NPS granted this extension until June 30, 2004 (See Attachment 21).

On June 30, 2004, SHP submitted their "Evidence of Finance" as required by the LOI (See Attachment
22). In a letter dated June 30, 2004, NPS, with the concurrence of SHP, extended the terms of the LOI
from June 30, 2004, until July 14, 2004, to give NPS time to perform due diligence on the financial
information submitted by SHP (See Attachment 21).

On July 9, 2004, the "Fort Hancock Historic Lease" was executed (See Attachment 27). According to
the terms of Exhibit A, Section 3.B. of the lease, SHP was required to submit written evidence that
they obtained "commercially reasonable financial commitments from qualified entities to assure the
Lessee's ability to construct Rehabilitation Phase I. .." by December 31, 2004, or such extended date as
shall be agreed to by Lessor in its sole unreviewable discretion ("Submission Date"), written evidence
that demonstrates to the satisfaction of Lessor in the exercise of it reasonable discretion that Lessee has
by the Submission Date obtained commercially reasonable financial commitments from qualified
entities ... "

In a letter dated August 6, 2004, attorneys representing SSH notified NPS of their intent to sue in
Federal District Court to enjoin and cancel the SHP lease. SSH filed suit on December I, 2004
(Attachments 34 and 35).

Between December 20, 2004 and June 30, 2007, NPS initiated and executed three amendments to the
SHP lease granting SHP additional time to obtain financing for phase one of the redevelopment.
According to the terms of these amendments, NPS extended the deadline to submit financial
information because of the uncertainty and challenge SHP was facing in light of the ongoing litigation
(Attachment 36).

In a memorandum dated June 20, 2007, Conte advised NPS to grant the June 30, 2007, extension
(Attachment 37). Conte based this recommendation on the following:
            • NPS has evidence that the reason SHP has not been able to secure financing is due to
               the SSH litigation.
            • Terminating the lease would leave NPS further from their goal of preserving the
               historic buildings.
            • Terminating the lease would expose NPS to a "substantial damage claim" by SHP.

During his interview, Conte stated that SHP provided NPS with documentation that Palisades Financial
was committed to financing the project, contingent upon the resolution of the litigation in favor of NPS
and SHP. Conte advised that the only security that can be offered to a lending institution in this type
of a project is the leasehold mortgage. If the court orders NPS to vacate their lease with SHP, SHP
would have no authority to sublease the buildings and therefore no revenue to repay a loan (See
Attachment 31 ).

William Procida, Principal, Palisades Financial LLC, was interviewed. Procida confirmed that
Palisades has entered into a term sheet with SHP. Due to ongoing litigation against SHP and NPS,
Palisades' relationship with SHP has not gone past the term sheet. Procida stressed numerous times
throughout the interview that he did not believe that any financial institution will finance the Fort
Hancock project until the litigation is resolved . Procida advised that if SSH wins the lawsuit, the lease

                                        OFFICIAL USE ONLY
                                                    12
                                                                  CkOV Number: PI·NY ·07·0399·1
between NPS and SHP will be vacated, which would leave the lender with no way to recover their
investment (Attachment 38).

Numerous documents have been received in connection with this investigation which document
Palisades interest in financing the SHP redevelopment contingent upon numerous factors, to include
the resolution of the SSH litigation in favor of NPS and SHP (Attachment 39).

During his interview, Alexander advised that the existence of any litigation which seeks to terminate
the lease between NPS and SHP would affect SHP's ability to obtain financing for the redevelopment.
Alexander does not believe that any lender would lend money against a lease that was the subject of
litigation. Alexander opined that SHP is obligated to disclose the existence of the lawsuit to any
prospective lender (See Attachment 16).

During his interview Hanslin stated that the extensions granted to the SHP to prove financing were
done in good faith because it is not reasonable to expect SHP to obtain financing with litigation
pending (See Attachment 17).

Ed Wojtaszek, Executive Vice President/Senior Loan Officer, The Town Bank, was interviewed.
Wojtaszek advised that in approximately June 2004, SHP approached The Town Bank seeking
$2,455,000 in financing for the rehabilitation of Building 23. Ultimately, The Town Bank declined to
finance the SHP project due to SHP's failure to continue pursuing the loan and to controversy
surrounding the project. Wojtaszek stated that the bank is a business and they saw the merits of the
project; however, the bank is "too small to be in the middle of fighting this battle." With respect to the
ongoing litigation, Wojtaszek advised that The Town Bank would not loan money to anyone whose
authority to hold a lease is uncertain. Wojtaszek explained that if the lease was vacated, the borrower
would lose their ability to lease the buildings and in tum would have no way to generate the income
needed to repay the loan (Attachment 40).

On September 13, 2007, The Honorable Mary L. Cooper, United States District Court Judge for the
District of New Jersey, ruled in favor of the defendants, NPS and SHP, on all counts and matters
before the court (Attachment 41). On November 12,2007, SSH filed their intent to appeal Judge
Cooper's ruling with the United States Court of Appeals for the Third Circuit (Attachment 42).

According to the terms of the most recent amendment to the SHPINPS lease dated June 30, 2006, SHP
is required to provide evidence of financial commitment to construct phase one by "June 30, 2007, or
six months following adjudication of the Civil Action No. 04·5908 (MCL) whichever come first. .. "

    •   When will NPS consider terminating the lease with SHP so that other options, not involving
        private redevelopments, can be explored?

During her interview, Pendry stated that she is not aware of any discussions regarding the termination
of the SHP lease. Further, Pendry has no knowledge of the NPS exploring other noncommercial
options for Fort Hancock. Pendry said that any decision to terminate the lease or consider
noncommercial options would lie with the Northeast Regional Director (See Attachment 19).

    •   Why are the NPS requirements for financing the Fort Hancock lease different from the
        requirements used in the Golden Gate National Recreation Area, Fort Baker lease and Hot
        Springs National Park, Historic Bath House lease?



                                        OFFICIAL USE ONLY
                                                13
                                                                         C"o'; Number: PI·NY·07·0399·1
Between 1997 and 2007, in addition to the Fort Hancock lease, two other leases were administered by
NPS through an RFP process; the Golden Gate National Recreation Area, Fort Baker lease (Fort
Baker) and the Hot Springs National Park, Historic Bath House lease (Hot Springs). Both Fort Baker
and Hot Springs followed the Fort Hancock lease. All responses to the RFPs were evaluated against
numerous criteria to include the respondent's financial capability to complete the project. According
to the information obtained during this investigation, none of the responses to the RFPs included all of
the financial information requested by the RFP. Specifically, within their recommendation
memorandums to their respective directors, the evaluation panels for both the Fort Baker and Hot
Springs leases articulated their concern about all of the respondent's financial capabilities. Finally, all
of the aforementioned lessees were required, through either a Lease Disposition and Development
Agreement (LDDA), or a LO!, to meet certain financial milestones prior to entering into a final lease.
The financial requirements imposed upon the Fort Baker and Hot Springs lessees appear to have been
more clearly defined by NPS than those imposed upon SHP. Specifically, both the Fort Baker and Hot
Springs lessees had financing in place prior to executing their respective leases with NPS
(Attachments 43 and 44).

This investigation further disclosed that the Fort Baker lease was held up by litigation brought by the
City of Sausalito, CA. The presence and circumstances involved in this litigation caused NPS to issue
numerous extensions to the LDDA and impacted the lessees ability to obtain financing. The Fort
Baker lessee was not able to obtain financing until the litigation was resolved. There was no litigation
involved in the Hot Springs leasing process (See Attachment 43 and 44).

The specific financial requirements of the RFP's, LOIs' and the LDDA were different in each matter.
However, the overarching intent of these requirements was to ensure that the selected developers had
the capacity and financial resources available to them to complete their particular projects. Although
NPS entered into the lease with SHP without requiring SHP to obtain financing in advance, individuals
interviewed in connection with this investigation are relying on specific provisions built into the SHP
lease to ensure that NPS ' s interests are protected (See Attachment 17, 19,33,43 and 44).

A detailed account of the Fort Baker and Hot Springs leasing process can be found within attachments
43 and 44 respectively.

Concerns Raised by the Save Sandy Hook Foundation

   •   Determine if an assignment of authority was executed from WRG to SHP.

An assignment of authority was not executed from WRG to SHP nor does it appear that one was
necessary.

In an e-mail to the reporting agent Conte advised "it is not unusual when a RFP is put out to have the
party that actually executes a lease be newly constituted by the party that submits the response to the
RFP ... " Conte further advised that an assignment of authority to SHP was not necessary since NPS
did not enter into a lease with WRG (Attachment 45).

During her interview, Pendry stated that she does not believe that an assignment of authority from
WRG to SHP was necessary because NPS never entered into a lease with WRG (See Attachment 19).




                                        OFFICIAL USE ONLY
                                                14
                                                                        c~"" Number:     PI-NY-07-0399-I
A review of the RFP Section 1.5 states, "If the proposer is not planned to be the long-term operator of
the property, identify tile long-term leaseholder or, if not know, how one will be located and on what
terms (See Attachment 7)."

A review of WRG's proposal revealed that WRG identifies their intention to form, SHP, a "dedicated
entity" to manage the redevelopment, in various locations throughout their response to the RFP (See
Attachment 8).

Following WRG's selection from the RFP process, Wassel incorporated SHP (Attachment 46).

    •   Detennine if an unfair advantage was created when NPS changed the financial requirements
        that appeared in the draft lease to the terms of the final lease.

This investigation has not identified any unfair advantage received by SHP as a result of the changes
made from the financial requirements of the draft lease to the financial requirements of the final
SHPINPS lease.

SSH expressed .concern to this office that when the RFP was open to the public the draft lease
associated with the RFP required the respondents to prove their ability to obtain "all funds necessary to
complete the Lessee Improvements or Alterations." The final lease entered into between SHP and
NPS contained an exhibit which in essence only required SHP to initially obtain funding for Phase I of
their three phase redevelopment plan. SSH expressed concern that by only requiring SHP to initially
obtain funding for one phase of the redevelopment, as opposed to the entire redevelopment as
contemplated by the draft lease, NPS provided an unfair advantage to SHP.

During the course of this investigation a copy of the draft lease associated with the RFP was obtained
and reviewed in comparison to the final lease entered into between SHP and NPS (Attachment 47).
This review revealed that Exhibit A of the draft lease was changed within the final SHPINPS lease.
Specifically the requirement from Section 14.1 of the draft lease reads, "Prior to undertaking Lessee
Improvements or other Alterations, the Lessee shall submit to the Lessor evidence satisfactory to the
Lessor that the Lessee has obtained a firm and binding commitment for the financing necessary for the
construction of the Lessee Improvements or Alterations." Section 14.1 of the final lease is not
identical, but is consistent with the terms of the draft lease. However, Exhibit A 3.A., of the final
lease, supersedes the requirements of Section 14.1 for Rehabilitation Phase I. The requirements under
Exhibit A, Section 3.B. of the final lease requires the lessee to submit to the lessor "written evidence
that demonstrates to the satisfaction of the Lessor ... commercially reasonable financial commitments
from qualified entities to assure the Lessee's ability to construct Rehabilitation Phase I in a complete,
timely and quality manner .... "

A review of the RFP discloses in numerous locations that the final lease between the NPS and the
selected developer would be negotiated (See Attachment 7). Additionally, the RFP acknowledges the
respondent's ability to proceed with their proposal in phases. Specifically, Section 2.9 of the RFP
states:

        "Describe your project phasing as applicable, including estimate completion dates. What
specific assurances can you propose to the NPS that you can meet this schedule ?"

A review of Section 2.2 ofWRG' s response to the RFP laid out WRG's approach to the Fort Hancock
redevelopment in three phases. Additionally, WRG' s responses to evaluation criteria 5 FINANCIAL


                                       OFFICIAL USE ONLY
                                                   15
                                                               Number: PI·NY·07·0399·I
                                                                        C;'o';

CAPABILITY AND ASSURANCES, broke down the timeline, cost estimates, and revenue to NPS ,
into three distinct phases (See Attachment 8).

A review of Section 15.1 (b) of the draft lease states "In the event Lessee Improvements are to be
completed in phases, the Lessee shall complete Lessee's Improvements in accordance with a schedule
of construction ... (See Attachment 47)."

In Conte's October 22, 2007, memorandum to this office, Conte stated that " ... the lease which was
included with the RFP was intended to serve as an example, not as a definitive lease, and that the RFP
clearly indicated that the lease would be negotiated after a selection of a successful offeror was made.
Accordingly, the division of the Lessee improvements into phases was a matter determined by the
negotiations between the parties which was within the scope of the RFP" (See Attachment 18).

During his interview, Adlerstein stated that allowing the developer to complete the project in phases is
standard practice. Further, phasing the project is not changing the scope of the project; it is simply
changing the means and methods of progressing. According to Adlerstein, the change from requiring
the developer to fund the entire project prior to beginning construction, to only requiring them to fund
the first phase, ~ould not have impacted the panel's evaluation. NPS wanted someone who was
capable of completing the entire project and the panel's analysis was based upon this desire.
Adlerstein stated that the ability of the developer to phase the project was disclosed in the RFP.
Adlerstein believes that it is industry practice to only obtain financing for the current phase of
construction. Adlerstein added that in order to obtain a firm financing commitment numerous
milestones would have to be met, such as obtaining design and architectural drawings, which cost on
average ten percent of the project cost. According to Adlerstein, the developer would not incur these
costs until they are ready to proceed with construction. Adlerstein stated that if a project is scheduled
to proceed in phases, it is implied that financing will also be obtained in phases (See Attachments 9
and 15).

When interviewed, Hanslin stated that he does not believe that changing the terms of the lease created
an unfair advantage to the other respondents to the RFP. According to Hanslin, the RFP stated that
someone would be selected to negotiate a lease with NPS. At the time of the RFP, the terms of the
lease available to the respondents were very broad. Hanslin advised that anyone selected would have
had the same opportunity to negotiate the same terms of a lease with NPS (See Attachment 17).

Pendry stated that in accordance with the National Park Service Concessions Management Improvement
Act of 1998, concessions contracts are specifically prohibited from making changes such as the one
described in the SHP lease. Pendry added that the lease process is substantially different, in that there
is a negotiation phase in which these types of terms are negotiated. Pendry is not aware of any
legislation or policy which prohibits making changes to the draft lease. Pendry believes that making
changes during the process may be a "best practice" because NPS needs the leasing process to be
flexible. Through the RFP process, NPS is selecting someone who they believe has the best capacity
to carry out their proposal. Pendry believes that NPS selected a developer with the capacity to carry
out the entire project, and through the negotiation process agreed to allow SHP to proceed in phases.
Pendry stated that it seems logical that since SHP's proposal was to proceed in a phased manner, they
would also be allowed to fund the project in phases (See Attachment 19).

    •   Determine who conducted the traffic and environmental studies associated with this lease.

NPS conducted all traffic and environmental studies associated with this lease.


                                        OFFICIAL USE ONL Y
                                                    16
                                                                      c~"~   Number:   PI-NY-07-0399-I

During his interview NeUigan advised that NPS conducted a NEPA-EA of the Fort Hancock
redevelopment for the purpose of ensuring there would not be a significant impact on the environment.
There are numerous components of the EA to include traffic studies. Nelligan advised that NPS
contracted with the Eastern Division of Federal Lands and Highways, U.S. Department of
Transportation (OOn, to conduct a traffic study of the immediate vicinity of SHU. Additionally, in
response to concerns raised by the public in both public meetings and comment periods, NPS
contracted with the highway engineering firm of Jacob Sverdup, to conduct a more in depth traffic
study. The Sverdup study extended from exit 17 of the Garden State Parkway to SHU. Nelligan added
that the Sverdup study exceeded the NEPA requirements; however, NPS conducted this study to
address the public's concerns.

Nelligan advised that NPS could not conduct the EA until NPS selected a developer from the RFP
because the uses of the buildings were not clear until this time. Nelligan opined that NPS consulted
with SHP about the uses of the buildings and the parking plan in order to complete the EA. NEPA
compliance in this matter is the responsibility of NPS and as such all studies related to the NEPA
compliance were funded by NPS. The EA was completed and a FONSI was issued in July 2003 (See
Attachment 33).

                                           DISPOSITION

No criminal or civil violations were identified during the course of this investigation. A Management
Advisory will be issued to NPS to address the administrative matters identified by this investigation.
No further investigative activity is anticipated in this matter.

                                          ATIACHMENTS
       1. Title 16 U.S.C. § 470h-3.
       2. Title 36 C.F.R. Part 18.
       3. 2001 NPS Management Policies, Chapter 5.3.3.
       4. NPS Director's Order 38, dated January 19, 2006.
       5. NPS draft Reference Manual 38 as of October 1, 2007.
       6. Letter from Rep. Frank Pallone dated July 2,2007.
       7. RFP for the leasing of historic Fort Hancock Properties dated August 1999.
       8. WRG's response to the RFP dated November 8, 1999.
       9. IAR- Second interview of Michael Adlerstein, dated November 26, 2007.
       10. Letter from Adlerstein to Wassel dated December 3, 1999.
       11. IAR-Second interview of James Wassel on December 3, 2007, dated December 4, 2007.
       12. Letter from 1-10 Industry Associates, LLC, to Adlerstein, dated January 7, 2000.
       13. Document entitled "The Continuing Development of Fort Hancock" not dated.
       14. "Evaluation of Proposals for the Leasing of Historic Fort Hancock Properties" dated March
           27,2000.
       15. IAR- Interview of Michael Adlerstein on October 2,2007, dated November 8, 2007.
       16. IAR - Interview of William Alexander on August 22, 2007, October 11 , 2007.
       17. lAR- Interview of Lars Hanslin on September 13, 2007, dated October 1, 2007.
       18. Memorandum from Anthony R. Conte to SA Vazquez on October 22,2007.
       19. lAR- Interview of Jo Pendry on January 7, 2008, dated January 8, 2008.
       20. LOI between NPS and SHP dated November 29,2001.
       21. Extensions to LOI between November 29, 2001 and July 14,2004.
       22. Evidence of Finance submitted by SHP to NPS dated June 30, 2004.


                                       OFFICIAL USE ONLY
                                               17
                                                                    c~"" Number: PI·NY·07·0399·1
23. Preliminary analysis prepared by Alexander fax stamped July 1, 2004.
24. Letter from Wassel to NPS dated July 2, 2004.
25. Letter from Alexander to NPS dated July 9, 2004.
26. IAR- Information provided by Pendry via e·mail on October 1, 2007, dated February 14,
    2008.
27. Fort Hancock Historic Lease dated July 9, 2004.
28. IAR- Interview of James Wassel on August 3,2007, dated August 21,2007.
29. Report from Hozhauer & Holenstein, LLC dated May 9, 2007.
30. E·mail message from Richard Wells to Pam McClay dated August 13,2007.
31. IAR- Interview of Anthony Conte on July 26,2007, dated July 26, 2007.
32. IAR- Interview of Richard Wells on October 2, 2007, dated October 11, 2007.
33. IAR-Telephonic interview of William Nelligan on/dated September 26, 2007.
34. Letter dated August 6, 2004 notifying NPS of SSH's intent to sue.
35. Complaint and Jury Demand filed by SSH on December I, 2004.
36. Amendments to lease extending deadline for submission financing between December 20,
    2004 and June 30, 2007.
37. Memorandum to Ex. (b)(6) and (b)(7)(C) from Anthony Conte dated June 20, 2007.
38. IAR~ Interview of William Procida on August 23,2007, dated August 24, 2007.
39. Documents between Palisades Financial and Wassel between February 2006 and August
    2007.
40.IAR- Interview of Ed Wojtaszek on September 5,2007, dated September 10,2007.
41. Order and Judgment in Civil Action No. 04-5908, filed September 13,2007.
42. Notice of Appeal in Civil Action No. 04-5908, filed November 12, 2007.
43. IAR- Information obtained fromEx. (b)(6) and (b)(7)(C) dated January 15,2008.
44. IAR- Information regarding Hot Springs National Park, dated January 29, 2008.
45. IAR- Information provided by Conte via e-mail on November 2,2007, dated February 14,
    2008.
46. IAR- Articles of incorporation for SHP.
47. Copy of the draft lease available to the public associated with the RFP, August 1999.




                               OFFICIAL USE ONLY
                                       18
